September 5, 2000

PETER A. JACOBSON
SENIOR VICE PRESIDENT,
 CHIEF TECHNOLOGY OFFICER

STEPHEN M. KEARNEY
SENIOR VICE PRESIDENT,
 CORPORATE AND BUSINESS DEVELOPMENT

RICHARD J. STRASSER, JR.
ACTING CHIEF FINANCIAL OFFICER
 AND EXECUTIVE VICE PRESIDENT,

SUBJECT:	 Audit Report – USPS eBillPay Security and Privacy Issues (Report
          Number EC-AR-00-001)

This report presents the results of our audit of the Postal Service's implementation of
the USPS eBillPay electronic bill presentment and payment system (Project Number
00SR003EC000). The objective of our audit was to determine whether the Postal
Service met information systems security and federal privacy requirements prior to
bringing the system online.

We concluded that the Postal Service did not: (1) perform a certification and
accreditation of the USPS eBillPay system, (2) identify minimum security requirements
in the agreement with CheckFree Corporation, and (3) publish notice of USPS eBillPay
in the Federal Register. We made five recommendations addressing these issues.
Management generally agreed with our recommendations. Management’s comments
are included, in their entirety, in Appendix C.

We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions or need additional information, please contact Robert Batta,
director, Electronic Commerce, or me at (703) 248-2300.


//Signed//
Colleen A. McAntee
Acting Assistant Inspector General
  for Audit
Attachment

cc: Richard D. Weirich
    James L. Golden
    John R. Gunnels
USPS eBillPay Security and                                          EC-AR-00-001
 Privacy Issues


                             TABLE OF CONTENTS
Part I

Executive Summary
                                                     i

Part II

Introduction                                                           1

   Background                                                          1

   Objective, Scope, and Methodology                                   2


Audit Results                                                          4

   Security Issues                                                     4

   Recommendations                                                     7

   Management’s Comments                                               8

   Evaluation of Management’s Comments                                 8


   Privacy Issues                                                      9

   Recommendation                                                     10 

   Management’s Comments                                              10 

   Evaluation of Management’s Comments                                10 


Appendix A. Security Certification and Accreditation Requirements     11 

Appendix B. Comparison of Systems of Records                          13 

Appendix C. Management's Comments                                     14 

USPS eBillPay Security and                                                        EC-AR-00-001
 Privacy Issues


                                EXECUTIVE SUMMARY
Introduction 	               This report presents the results of our audit of the Postal
                             Service’s implementation of USPS eBillPay electronic bill
                             presentment and payment service. The objective of our
                             audit was to determine whether the Postal Service met
                             information systems security and federal privacy
                             requirements when implementing USPS eBillPay.

Results in Brief	            While the system sponsor obtained security assurances
                             from CheckFree Corporation prior to implementing USPS
                             eBillPay, we found that the Postal Service did not officially
                             validate, through the existing certification and accreditation
                             process, that the USPS eBillPay system is secure and will
                             adequately protect Postal Service customer data. The
                             Postal Service wanted to quickly bring the system to market
                             and did not follow the existing certification and accreditation
                             process because it would not facilitate expedited system
                             release. The system sponsor also considered USPS
                             eBillPay security a low risk because CheckFree Corporation
                             had provided this type of service since 1997. In addition,
                             the agreement between the Postal Service and CheckFree
                             Corporation provides indemnification in the event
                             CheckFree Corporation’s safeguards prove insufficient;
                             however, the agreement did not identify incident reporting
                             and other minimum security requirements for system
                             certification. The security of USPS eBillPay could be
                             strengthened and the interests of the Postal Service could
                             be better protected if the agreement also addressed
                             vulnerability testing. To the Postal Service’s credit, the
                             security staff began the certification and accreditation
                             review process shortly after system implementation.

                             If the Postal Service had validated the assurances it
                             received from CheckFree Corporation concerning the
                             security of the system against its existing security
                             requirements, it may have become aware of the likely
                             threats or ways the system may be misused or how well the
                             mechanisms used to provide protection operate.

                             We also found that the Postal Service did not publish notice
                             of USPS eBillPay in the Federal Register in accordance with
                             Privacy Act requirements, even though sensitive customer
                             data, such as social security numbers, checking account
                             numbers, and bank routing numbers, are maintained in the



                                                i
USPS eBillPay Security and                                                       EC-AR-00-001
 Privacy Issues


                             USPS eBillPay "system of records." The Postal Service
                             evaluated an existing “system of records” and believed it
                             covered USPS eBillPay. As a result, interested parties did
                             not have notice of what sensitive data the Postal Service
                             would be collecting, and were not provided the opportunity
                             to submit written data, views, or arguments regarding the
                             use of this information. To the Postal Service’s credit, it
                             subsequently drafted a new "system of records," covering
                             USPS eBillPay to consider publishing in the Federal
                             Register.

Summary of                   We recommend the chief technology officer, in conjunction
Recommendations              with the senior vice president, Corporate and Business
                             Development, (a) develop a new process to document
                             system security and meet the intent of system certification
                             and accreditation to be used when partnering with
                             companies operating commercial systems, (b) document
                             any alternative security assurance processes and cross-
                             reference those agreements to the existing certification and
                             accreditation process, and (c) ensure the security
                             assurance process includes participation from the National
                             Information Systems Security office, and the Inspection
                             Service.

                             We also recommend the acting chief financial officer and
                             executive vice president ensure the Privacy Act officer
                             publish notice of any new system or major changes to an
                             existing system in the Federal Register.

                             Additionally, we recommend the senior vice president,
                             Corporate and Business Development, hold discussions
                             with CheckFree Corporation regarding additional
                             assurances on how their current business practices meet
                             Postal Service security requirements, to include security
                             incident reporting and vulnerability testing.

Summary of                   Management agreed with four of the five recommendations
Management’s                 and their actions met the intent of the fifth recommendation.
Comments                     Management provided clarifying language on their review of
                             CheckFree Corporation’s system security. Management's
                             comments, in their entirety, are provided in Appendix C.




                                               ii
USPS eBillPay Security and                                                    EC-AR-00-001
 Privacy Issues



Evaluation of                Management’s comments were generally responsive. While
Management’s                 management did not fully agree with the finding regarding
Comments                     the Certification and Accreditation of the USPS eBillPay
                             system, actions taken or planned should address the issues
                             raised in this report.




                                              iii
USPS eBillPay Security and                                                                           EC-AR-00-001
 Privacy Issues


                                            INTRODUCTION
Background 	                     Electronic commerce is one of the most significant threats
                                 facing the Postal Service in its more than 200-year history.
                                 The Postal Service projects that electronic commerce may
                                 cause First-Class Mail revenue to decline by $33 billion
                                 between years 2000 and 2008. To help generate revenue
                                 and be competitive in the electronic marketplace, the Postal
                                 Service initiated an electronic bill presentment and payment
                                 service.1

                                 In April 2000 the Postal Service signed an agreement with
                                 CheckFree Corporation, and implemented USPS eBillPay.
                                 USPS eBillPay allows consumers to pay their bills online
                                 through a central, secure Internet web site. Figure 1
                                 describes the bill payment service.




                                                                                                     Figure 1


                                 CheckFree Corporation owns and operates the system and
                                 infrastructure that support USPS eBillPay (see Figure 2),
                                 and offers its electronic billing and payment services
                                 through more than 100 other companies. USPS eBillPay
                                 maintains sensitive and Privacy Act data owned by the
                                 Postal Service and, therefore, is subject to specific Postal
                                 Service security and federal privacy requirements.




1
 Electronic bill presentment and payment provides billers a new way to deliver bills and receive payments from
customers and provides consumers an easy, secure, and convenient way to receive and pay their bills.



                                                         1
USPS eBillPay Security and                                                                     EC-AR-00-001
 Privacy Issues




                                                   - Access




                                 Customer




                                                                                  - Service

                                             USPS eBillPay front-end
                                                @ USPS.COM
                                               NOTE: Over 100 other companies
                                                     offer a front-end.




                                                   - Service

                                                                                USPS eBillPay System




                                                              Figure 2

                             As an Internet service, USPS eBillPay presents security
                             risks that do not exist in paper-based environments. The
                             Internet allows companies to offer electronic commerce
                             services to millions of users, leaving computer systems
                             vulnerable to computer hackers. For example, hackers
                             have stolen thousands of credit card numbers from
                             electronic commerce sites during the last few years. The
                             potential for financial losses from such thefts has raised the
                             issue of financial liability for companies offering Internet
                             services.

Objective, Scope, and 	 The objective of our audit was to determine whether the
Methodology	            Postal Service met information systems security
                        requirements and federal privacy requirements when
                        implementing USPS eBillPay. During our review, we
                        interviewed Postal Service officials in headquarters and


                                               2
USPS eBillPay Security and                                                    EC-AR-00-001
 Privacy Issues


                             Raleigh, North Carolina; Inspection Service personnel; and
                             CheckFree Corporation officials. We also reviewed relevant
                             documentation from the Postal Service and CheckFree
                             Corporation, Postal Service security and privacy policies,
                             and the Privacy Act of 1974.

                             We conducted our audit between April and August 2000 in
                             accordance with generally accepted government auditing
                             standards and included such tests of internal controls as
                             were considered necessary under the circumstances. We
                             discussed our conclusions and observations with
                             appropriate management officials and included their
                             comments, where appropriate.




                                              3
USPS eBillPay Security and                                                        EC-AR-00-001
 Privacy Issues


                                     AUDIT RESULTS
Security Issues              While the system sponsor obtained security assurances
                             from CheckFree Corporation prior to implementing USPS
                             eBillPay, we found that the Postal Service did not officially
                             validate, through the existing certification and accreditation
                             process, that the USPS eBillPay system is secure and will
                             adequately protect Postal Service customer data. In
                             addition, although the agreement between the Postal
                             Service and CheckFree Corporation provides
                             indemnification in the event CheckFree Corporation’s
                             safeguards prove insufficient, the agreement did not identify
                             incident reporting and other minimum security requirements
                             for system certification. The agreement also does not
                             address vulnerability tests, which could help strengthen the
                             security of USPS eBillPay and better protect the interests of
                             the Postal Service. To the Postal Service’s credit, the
                             security staff began the certification and accreditation review
                             process shortly after system implementation.

Security Certification	      Management instruction AS-850-97-3 Security Certification
and Accreditation 	          and Accreditation of Sensitive Application and Systems
                             requires the Postal Service to certify and accredit all
                             sensitive computer systems before putting them into
                             production. Certification is an independent analysis of the
                             management, technical, and operational security controls
                             used to determine whether the system meets security
                             requirements. Accreditation occurs after certification and is
                             the official management authorization that appropriate
                             security controls have been implemented to operate the
                             system. The current certification process has
                             37 management, operational, and technical control security
                             requirements with associated standards that must be met
                             before the Postal Service can accredit a system (see
                             Appendix A). Examples of these requirements include:

                                •	 Obtaining security clearances for all personnel
                                   working on the system.
                                •	 Performing a risk assessment on the system.
                                •	 Testing the security of a system.
                                •	 Establishing a security plan that addresses security
                                   requirements.




                                               4
USPS eBillPay Security and                                                                          EC-AR-00-001
 Privacy Issues


                                 While the Postal Service obtained security assurances from
                                 CheckFree Corporation, we found that the Postal Service
                                 did not certify and accredit USPS eBillPay in accordance
                                 with existing Postal Service requirements before bringing it
                                 online. The security assurances included CheckFree
                                 Corporation’s Statement of Accounting Standards No. 702
                                 and an indemnification clause in the agreement in the event
                                 CheckFree Corporation’s safeguards proved insufficient.

                                 If the Postal Service had validated the assurances it
                                 received from CheckFree Corporation concerning the
                                 security of the system against its existing security
                                 requirements, it may have become aware of the likely
                                 threats or ways the system may be misused or how well the
                                 mechanisms used to provide protection operate.

                                 The Postal Service did not follow the existing certification
                                 and accreditation process because it wanted to bring the
                                 system to market quickly. In addition, the system sponsor
                                 considered USPS eBillPay security a low risk because
                                 CheckFree Corporation had provided this type of service
                                 since 1997. Thus, the system sponsor made a business
                                 decision to focus on the operational, logistical, and legal
                                 aspects of USPS eBillPay and agreed to perform the
                                 certification after system implementation.

                                 We recognize that CheckFree Corporation’s system may
                                 have been in operation for some time and have security
                                 measures in place that may meet some Postal Service
                                 requirements. However, the Postal Service should have
                                 considered all aspects of its security and privacy
                                 requirements for protecting customer data in addition to the
                                 assurances provided by CheckFree Corporation and
                                 included the National Information Systems Security office
                                 earlier in the process.

                                 We also recognize that the management instruction applies
                                 to systems developed for and by the Postal Service, and
                                 that it does not specifically address existing systems
                                 operated by private corporations which partner with the
                                 Postal Service. However, it is the only guidance the Postal
                                 Service has in place to ensure the security functions of a

2
 In 1993, the Auditing Standard Board of the American Institute of Certified Public Accountants issued Statement of
Accounting Standards No. 70 (SAS 70), “Reports on the Processing of Transactions by Service Organizations,” which
provides guidance to companies that outsource accounting tasks to service organizations.



                                                        5
USPS eBillPay Security and                                                                         EC-AR-00-001
 Privacy Issues


                                 system are sufficient to protect the system and its
                                 information, and that implementation decisions are made in
                                 full consideration of Postal Service security requirements
                                 and standards.

Post Implementation 	            After official notification of USPS eBillPay implementation,
Actions 	                        the National Information Systems Security office and the
                                 Inspection Service began assessing security as part of the
                                 certification and accreditation process. They found:

                                 •	 While Postal Service certification requirements indicate
                                    that no one should work on a system until they receive
                                    the proper security clearance, at least 600 CheckFree
                                    Corporation employees without the required security
                                    clearances have access to Postal Service customer
                                    data.3

                                 •	 Despite the Postal Service’s certification requirement
                                    that all security incidents be reported, there are no
                                    procedures in place for CheckFree Corporation to notify
                                    the Postal Service of security incidents.

                                 •                                                                            4



                                                                         .

Security Requirements In reviewing the agreement between the Postal Service and
in the Agreement with CheckFree Corporation, we determined security
CheckFree Corporation requirements, as detailed in the agreement, were not
                      sufficient to protect the Postal Service’s interests and
                      customer data. The agreement provides indemnification to
                      the Postal Service in the event CheckFree Corporation’s
                      safeguards prove insufficient; however, the agreement did
                      not identify incident reporting and other minimum security
                      requirements for system certification. The agreement also
                      does not address vulnerability tests which could help
                      strengthen the security of USPS eBillPay and better protect
                      the interests of the Postal Service. Therefore, the Postal
                      Service may not be able to require CheckFree Corporation
3
  All CheckFree Corporation employees undergo background checks, credit checks, and drug testing. The Inspection
Service is currently in the process of working with CheckFree Corporation to determine which of its employees have
access to USPS eBillPay and, therefore, will require a security clearance. In addition, the Inspection Service is
determining whether CheckFree Corporations clearance procedures are adequate to meet the intent of the Postal
Service's security requirements.
4
  A set of related programs, located at a network gateway server, that protects the resources of a private network
from users from other networks.



                                                        6
USPS eBillPay Security and                                                        EC-AR-00-001
 Privacy Issues


                             to meet minimum requirements for security of data, system
                             access, telecommunications, networks, software, and
                             personnel.

                                           ,


                                                         .

                             In addition to the alliance agreement, the Postal Service
                             provided us its draft security exhibit for review and comment
                             after it implemented USPS eBillPay. In our May 2000
                             response, we concluded that while security issues were
                             generally addressed, clearer and specific criteria and
                             requirements should be added to the exhibit. Specifically,
                             the exhibit did not address or reference Postal Service
                             internal security policies, standards, and procedures that
                             CheckFree Corporation should follow. We also observed
                             the exhibit only addressed physical security and suggested
                             the Postal Service incorporate minimum security
                             requirements in the exhibit. These would include security of
                             data, system access, telecommunications, networks, and
                             software security as well as training, personnel security, and
                             other specific security requirements.

Recommendations              We offer the following recommendations.

                             We recommend that the senior vice president, chief
                             technology officer, in conjunction with the senior vice
                             president, Corporate and Business Development,

                                1. Develop a new process to document system security
                                   and meet the intent of system certification and
                                   accreditation to be used when partnering with
                                   companies operating commercial systems.

                                2. Until a new process is developed, document any
                                   alternative security assurance processes and cross-
                                   reference those agreements to the existing
                                   certification and accreditation process.

                                3. Ensure the security assurance process includes
                                   participation from the National Information Systems
                                   Security office, and the Inspection Service.




                                               7
USPS eBillPay Security and                                                        EC-AR-00-001
 Privacy Issues


                             We further recommend the senior vice president, Corporate
                             and Business Development,

                                4. Hold discussions with CheckFree Corporation
                                   regarding additional assurances on how their current
                                   business practices meet Postal Service security
                                   requirements, to include security incident reporting
                                   and vulnerability testing.

Management’s                 Management agreed with the recommendations and stated
Comments                     they were already using eBillPay to help develop an
                             alternative process.

                             Management also stated that while they did not use the
                             certification and accreditation process to officially validate
                             CheckFree’s system, they did perform an initial assessment
                             of CheckFree’s system which revealed that CheckFree
                             adhered to high security standards sufficient to protect
                             Postal Service data.

                             Management's comments, in their entirety, are included in
                             Appendix C.

Evaluation of                Management asserts that their initial assessment of
Management’s                 CheckFree’s system revealed that CheckFree adhered to
Comments                     high security standards sufficient to protect Postal Service
                             data. However, management could not provide sufficient
                             documentation to support this assessment, nor
                             documentation to support the business decision to bypass
                             the existing certification and accreditation process.
                             Additionally, management’s rationale for bypassing the
                             existing certification and accreditation process only came to
                             light during draft report discussions, and, therefore, the new
                             information provided in support of their verbal assessment
                             was not validated during this review. However, we
                             considered management’s actions, taken and planned,
                             responsive to the issues raised in this finding.




                                               8
USPS eBillPay Security and                                                      EC-AR-00-001
 Privacy Issues



Privacy Issues 	             We also found that the Postal Service did not publish notice
                             of USPS eBillPay in the Federal Register in accordance with
                             Privacy Act requirements. This occurred because the
                             Postal Service believed an existing, published "system of
                             records," (Marketing Records) met the Privacy Act
                             requirements. To the Postal Service’s credit, it drafted a
                             new "system of records," (Customer Records) specifically
                             covering USPS eBillPay to consider publishing in the
                             Federal Register.

                             The Privacy Act of 1974 requires agencies to publish notice
                             in the Federal Register of any new "system of records" or
                             changes in an existing "system of records" at least 30 days
                             before the system becomes operational. It also requires
                             that interested persons have an opportunity to submit
                             written data, views, or arguments to the agency. In addition,
                             pursuant to this act, the Postal Service’s Administrative
                             Support Manual requires when an agency (a) expands the
                             types or categories of information maintained in a "system
                             of records" or (b) alters the purpose for which the
                             information is used, it must publish the “system of records”
                             in the Federal Register before implementation. .

                             In comparing Marketing Records with Customer Records,
                             Customer Records expanded the categories of information
                             and changed the purpose of the system. Only two
                             categories (customer name and address) were similar
                             between the two "systems of records," and Customer
                             Records added nine additional categories of information
                             including social security numbers, checking account
                             numbers, bank routing numbers, etc. The purpose of
                             Customer Records was to provide electronic billing and
                             payment services to Postal Service customers, which was
                             not covered in Marketing Records. A list of categories of
                             information and a description of the purpose of each
                             "system of records" is included in Appendix B.

                             Because the Postal Service did not provide notice in the
                             Federal Register, interested parties did not have an
                             opportunity to learn what information the Postal Service
                             would be collecting, and to submit written data, views, or
                             arguments regarding the use of this information. As the
                             Postal Service competes in the electronic marketplace, it is
                             even more exposed to public scrutiny and possible criticism



                                               9
USPS eBillPay Security and                                                         EC-AR-00-001
 Privacy Issues


                             by competitors and other organizations. This potentially
                             puts the Postal Service's reputation of public trust at risk.

Recommendation 	             We recommend the acting chief financial officer and
                             executive vice president,

                                 5.	 Ensure the Privacy Act officer publish notice of any
                                     new system or major changes to an existing system
                                     in the Federal Register.

Management’s                 Management agreed with the intent of this recommendation
Comments                     and stated they continue to believe that it was appropriate
                             and legally sufficient to rely on the existing system of
                             records for Marketing Records as the basis for Privacy Act
                             compliance for USPS eBillPay. Management further stated
                             that a new system of records was drafted specifically for
                             USPS eBillPay to meet perceived public concern about the
                             routine uses prescribed for the Marketing Records system
                             of records.

Evaluation of                Management’s actions meet the intent of the 

Management’s                 recommendation. 

Comments 





                                               10
USPS eBillPay Security and                EC-AR-00-001
 Privacy Issues


                             APPENDIX A




                                 11
USPS eBillPay Security and        EC-AR-00-001
 Privacy Issues




                             12
USPS eBillPay Security and                                                            EC-AR-00-001
 Privacy Issues



        APPENDIX B. COMPARISON OF SYSTEMS OF RECORDS

             Marketing Records                      Customer Records
                 (Existing)                              (Draft)
                            Categories of Information
                 NOTE: The bolded items represent those categories that are similar
•   Customer name and address                         •   Customer name and address
•   Customer profile and telephone                    •   Home and work phone number
    number
•   Description of items ordered and prices           •   Date of birth
•   Payment type                                      •   Driver’s license number
•   Credit card payment information                   •   Social security number
•   Order fulfillment information                     •   E-mail address
•   Inquiries on status of orders                     •   Service billing information (checking
                                                          account number and bank routing
                                                          number)
•   Claims submitted for defective                    •   Service user name/ID and password
    merchandise
•   Lists identifying individuals who have            •   Consumer’s bills registered with the
    submitted bad checks                                  service
                                                 •        Bill detail
                                                 •        Bill summaries
                                            Purpose
Operate a subscription service of services            Provide electronic billing and payment
for customers who remit money for a                   services to postal customers.
particular product or products.
Maintain a file to send product
announcements and sales literature to
customers or subscribers.
Serve as a source for statistical data for
research and market analysis, billing and
inventory data, and mailing basis for
product shipment.
Identify discrete groups of
customers/subscribers for better order
control and service.




                                                 13
USPS eBillPay Security and                            EC-AR-00-001
 Privacy Issues


                  APPENDIX C. MANAGEMENT'S COMMENTS




                                 14
USPS eBillPay Security and        EC-AR-00-001
 Privacy Issues




                             15
USPS eBillPay Security and        EC-AR-00-001
 Privacy Issues



Major Contributors to
This Report




                             16
